No. 18A1036

3fn m>t
Supreme Court of tfje Hmteb States*
David E. Grober,
Petitioner
v.
Mako Products, Inc., Varnell & Warwick, P.A.,
Brian Warwick, Janet Varnell,

Respondents

On Petition for Writ Of Certiorari
To The United States Court of Appeals for the
Federal Circuit

PETITION FOR WRIT OF CERTIORARI

David Grober, Pro Se
578 Washington Blvd., Suite 866
Marina Del Rey, CA 90292
310-951-1110
Davidgroberl@gmail.com

Question Presented

Whether the mandatory expense sanctions of
FRCP Rule 37, can be circumvented by a court
ignoring, or reducing them, including to zero, absent
the losing party's required burden showing
substantial justification, or to be unjust, AND the
court’s reasoned statement why a reduction comports
to that burden.

i

List of Parties And Rule 29.6 Statement
Petitioner David Grober is an individual and
Plaintiff in the underlying case.
Respondent Mako Products, Inc. is a defunct
company with no parent corporation and no publiclyheld corporation owns 10% or more of its stock.
Respondents Varnell & Warwick, P.A., Brian
Warwick and Janet Varnell are husband and wife
litigators who were investors in and counsel for Mako
Products, Inc.

ii

Table of Contents
Question Presented.....................................

i

List of Parties And Rule 29.6 Statement

ii

Citations To The Opinions and Orders Below

1

Statement Of Jurisdiction..................................

2

Statement Of The Case.......................................

2

Argument For Granting This Writ...................

4

A.
The 1970 Amendment To FRCP 37, Shows Little
Change In Compliance Decades Later........................... 4
B.
The Question Of Whether District Courts Must
Apply Rule 37 Sanctions Is Vitally Important To
Litigants Across The Country............................................ 7
C.
This Case, In Particular, Covers Multiple
Rule 37 Issues........................................................................ 11
D.
Research Shows Compliance Is Just A Drop In
The Bucket
13
E.
The Supreme Court and Attorneys Want
Compliance. The Trial Courts Are The Missing Link. 14
F.
Presently The Little Guy And Gal Don’t
Stand A Chance......................................................
G.

The Presumption Should Be That Rule

37 Sanctions Are Automatic................................
H.

15

17

Trial Court Failure To Impose Expense

Awards Has No Unity Of Cause, Just
Accepted Practice...................................................

19

I.

The Goal Of This Petition............................

20

Conclusion...................................................................

23

Appendix......................................................................

24

iii

c—

Table of Authorities
Cases
Cine Forty-Second St. Theatre v. Allied Artists
Pictures Corp., 602 F.2d 1062, (2d Cir. 1979)...

19

Grober v. Mako Products, Inc., 686 F.3d 335

1

National Hockey League v. Metropolitan Hockey
Club, 427 U.S. 639 (1976)........................
6,11,19
Pierce v. Underwood, 487 U.S. 552 (1988)

6

Roadway Express, Inc. v. Robert E. Piper, Jr. et al.,
100 S.Ct. 2455............................................................. 6
Security National Bank of Sioux City, Iowa v. Abbott
Laboratories, 299 F.R.D. 595 (N.D. Iowa 2014)......15
Rules
FRCP Rule 37

passim

Other Authorities
C. Ronald Ellington, U.S. Dept, of Justice,
A Study Of Sanctions For Discovery Abuse 2
(1979)
5,6,13, 22
Lindsey D. Blanchard, Rule 37(a)’s Loser-Pays
“Mandate”: More Bark Than Bite,
42 U. MEM. L. Rev. 109, 148
(2011-2012)
5, 7, 13 - 20
Wayne D. Brazil, Civil Discovery: Lawyer’s Views of
Its Effectiveness, Its Principal Problems and Abuses,
1980 Am. B. Found Res. J. 787
(1980)
15
iv

Citations To The
Opinions And Orders Below
The court of appeals for the federal circuit
order ignoring Rule 37 sanctions requests in 2012
can be found at 686 F. 3d 1335; and in 2017 (Case no.
2017-1507, Grober v. Mako Products, Inc., dkt. 106
filed 12/6/18 (Appx A) and the order denying
rehearing, dkt. Ill filed 1/15/19 (Appx B).
The ninth circuit’s orders ignoring FRCP Rule
37 sanctions are (Case no. 2:04-cv-08604-JZ-DTB,
Grober v. Mako Products, Inc., dkt. 371, filed on
11/2/09 (Appx D); dkt. 504, filed 7/24/15 (Appx E);
dkt. 506, filed 8/7/15 (Appx F); dkt. 507, filed 8/7/15
(Appx G).

1

Statement Of Jurisdiction
The Court of Appeals for the Federal District
issued its judgment affirming the lower court on
December 6, 2018 (Appx A), and denied a petition for
rehearing on January 15, 2019 (Appx B). The
jurisdiction of this Court is invoked under 28 U.S.C. §
1257(a). Petitioner timely filed this petition for a
writ of certiorari. A continuance was granted by this
Court to June 4, 2019.
The district court had jurisdiction in the
underlying patent action pursuant to 28 U.S.C. §1331
and § 1338(a). Following the district court’s order
denying Petitioner’s motion for reconsideration on
December 22, 2016, Petitioner filed a notice of appeal
to the Court of Appeals for the Federal District on
January 20, 2017.
The Federal Circuit had
jurisdiction under 28 U.S.C. §1295(a)(l) and 28
U.S.C. §1292(c)(l).

Statement Of The Case
This petition asks the Court to resolve the
issue of whether Courts must follow FRCP Rule 37
and impose the mandated expense sanction absent
the losing party’s substantial justification or showing
the award would be unjust, and the court’s reasoned
statement why reducing, including to zero, the
mandated sanction comports to that burden.
In the decades since the 1970 Amendments to
Rule 37, and the Advisory Committee’s notes,
2

research continues to show about the same 85% noncompliance rate by trial courts, as before the 1970
amendments. This failure unfairly prejudices honest
litigants, especially harms the Davids v. Goliaths,
and is wasteful of court and litigant resources. This
Court has twice spoken to clarify its position that
“Rule 37 sanctions must be applied diligently” and
still the trial courts have ignored this Court’s
counsel.
The question at hand resides upon a patent
infringement suit, 14 years of litigation, four motions
to compel, won or won-in-part, where not one
garnered the sanctions mandated by Rule 37. Each
instance was absent any review or reasoned
statement by the court that the losing party had met
its burden for showing “substantial justification” or
“unjust” as required to defeat the expense sanction.
Petitioner has appealed this issue to the Court
of Appeals for the Federal Circuit on two separate
occasions.
In the first appeal 2010-1519,-1527,
Petitioner won the key appeal issue which was
Markman claim construction. The Rule 37 question
was ignored in the ruling, and further denied a
rehearing. (Appx I)In the second appeal in the same case, 20171507, decided January 15, 2019, the Court of Appeals
for the Federal Circuit affirmed the trial court
decision wherein the trial court failed to impose
expense sanctions upon Respondents for multiple
discovery abuses. The capstone was Respondents,
upon a direct Order from the district judge,
producing discovery withheld over a period of seven
3

years. 9,383 documents were produced within days.
The trial court imposed no sanctions, made no
inquiry, review, nor made any reasoned statement
why no sanctions were substantially justified or just.
The Court of Appeals, affirmed the trial court,
without comment, essentially leaving non compliance
of Rule 37 the continued policy of the day.
Introduction
FRCP rule 37 is well written and clear. It
mandates expense sanctions against the losing party
in discovery disputes, absent the losing party’s
burden to show either “substantial justification” or
that sanctions would be “unjust”.
The Supreme Court has ruled multiple times
that sanctions be “applied diligently”, yet trial court
non compliance has hovered near 85% for decades.
This petition asks this Court to apply directive and/or
instruction, to turn the 85% non compliance into at
least an 85% compliance.
Argument For Granting This Writ
A. The 1970 Amendment To FRCP 37
Shows Little Change In Compliance
Decades Later
In 1970, on the heels of a study conducted by
the Columbia Project for Effective Justice, the
Supreme Court Advisory committee stated;
The present provision of Rule 37(a) that the
court shall require payment if it finds that
4

the
defeated party
acted
without
"substantial justification" may appear
adequate, but in fact it has been little used.
FRCP 37, Advisory Comm. Note (1970 Amendments).
The 1970 Committee Amendments then
shifted the burden from a requirement that expenses
be awarded only if the losing party acted without
substantial justification, to a requirement that
expenses be awarded unless the losing party acted
with substantial justification.
The Advisory Committee’s stated goal was
“expenses should ordinarily be awarded” under this
new language. (Appx J, pg. 116, Blanchard, fn34).
Ten years later, the Department of Justice
commissioned a new study conducted by C. Ronald
Ellington from the University of Georgia. 1 Mr.
Ellington concluded;
examination of the actual motions
shows
that
the
"substantial
justification" necessary to defeat the
award of expenses lacks clear meaning
and is unevenly applied. The costs of
bringing successful motions to compel
were far from being "ordinarily"
granted, as the rule change envisioned.
(Appx H, pg. 76, Ellington).
In support of the above statement, the DOJ i<

‘A Study of Sanctions For Discovery Abuse.” Available
in the DOJ Library. Washington, D.C. Appx. H.
5

Ellington report provided statistics gained from
written and oral interviews with 194 active and
senior federal district judges in 76 of the 94 judicial
districts. Appx H, pg. 73 (Ellington)
The report
highlighted that the practical application of Rule 37
sanctions was failing the Advisory Committee’s goal
that sanctions become the norm. Ellington found
expenses were “seldom,” “almost never” or “never”
imposed 86.3% of the time by responding judges.
(Appx H, pg. 86, Ellington).
This Supreme Court in at least two rulings,
has underscored the necessity of compliance.
Rule 37 sanctions must be applied
diligently both "to penalize those whose
conduct may be deemed to warrant such
a sanction, [and] to deter those who
might be tempted to such conduct in the
absence of such a deterrent." National
Hockey League v. Metropolitan Hockey
Cliib, supra, at 643.
Roadway Express, Inc. v. Robert E. Piper, Jr., et al.,
100 S.Ct. 2455 (1980) citing National Hockey League
v. Metropolitan Hockey Club, 427 U.S. 639, 643
(1976). .
The Supreme Court has likewise enabled clear
meaning to the term “substantial justification.”
Pierce v. Underwood, 487 U.S. 552, 565 (1988).
However, even these orders, according to
ongoing studies, have made little impact.

6

A later study in the 1980’s and
2008 by the American College of Trial
Newport Beach, (ACTL) in conjunction
continued to show the meager rate of
They stated only a 15% compliance rate.

updated in
Lawyers in
with IAAL,
compliance.
(Appx J, pg

117, Blanchard fn36).

However stated, the fact is about 85% of
litigants in our courts do not have the benefit of this
most beneficial rule intended to penalize and deter
discovery abuse and level the playing field for all.
B. The Question Of Whether District
Courts Must Apply Rule 37 Sanctions
Is Vitally Important To Litigants
Across The Country
From studies by the DOJ, to independent
lawyer groups, to educational law review studies,
courtroom application of Rule 37 sanctions, as
intended by the Advisory Committee, and in
Supreme Court orders, is lacking. The goal to be
achieved with this petition for a writ of certiorari, is
to turn around an 85% non-compliance record, to at
least an 85% compliance record.
Beginning in 1992, Petitioner Grober spent
eight years and hundreds of thousands of dollars
inventing a device to stabilize motion picture and
video cameras for filming on the water. The device
removes the pitch and roll motion imparted by wave
motion, leaving the camera stabilized as if it was on a
tripod on solid ground.
Petitioner Grober applied for, and received
U.S. Pat. # 6,611,662. Petitioner’s invention, the
7

Perfect Horizon Camera Stabilization System, won
an Emmy Award in 2004, and the coveted Academy
Award for Scientific and Engineering Achievement in
2006. Petitioner created a company for renting his
Perfect Horizon to film companies. He began to
employ local men and women in all aspects of
growing a small entrepreneurial business, including
ongoing R&D, developing new IP, and creating well­
paying, film production tech jobs.
The U.S. Navy also came knocking. Petitioner
helped Navy R&D labs such as SPAWAR, in
stabilizing camera systems for the newly minted
unmanned vessel capabilities that were quickly
unfolding as the U.S. has strived to stay ahead of
foreign threats to our national security.
In 2003, Respondent Mako Products, Inc.
(MPI), decided that Petitioner Grober’s patented
camera stabilization system was ripe for stealing.
They surreptitiously hired Petitioner’s employee to
hand over system components, trade secrets, and
help Respondent design a competing stabilizer.
This set up the instant patent infringement
suit, filed in October 2004. Unknown to Petitioner,
Respondent counsel, Brian Warwick and Janet
Varnell, husband and wife litigation team for MPI,
had financially invested $40,000 in MPI’s start-up.
Petitioner’s suit for patent infringement set in
motion an onslaught of divisive filings to bring
Petitioner financially to his knees. These included
Anti-Trust, California Unfair Practices CA: Bus &
Prof Code 17500 et seq., California Unfair
8

Competition Law, 17200 et Seq. and Defamation in
both federal and Florida state courts. (Appx C).
Relevant here is the massive discovery abuse,
including refusals to provide vast numbers of
relevant documents. Respondent counsel, Brian
Warwick further ordered Respondent’s two corporate
officers not to enter the deposition room after
Petitioner, his counsel, and an expert, flying from
California, arrived with a local court reporter and
videographer at the Florida Respondent’s office.
(Grober v. Mako, 2:04-cv-08604-JZ-DTB, Dkt. 229).
The depositions thus blocked, Petitioner and
his company, Voice International Inc., then filed a
motion to compel. The court later ordered the
depositions rescheduled, but failed to award a single
dollar for Rule 37 mandated costs of the successful
motion, nor sanctions to compensate over ten
thousand dollars in legal fees, flights, hotels, court
reporter and videographer fees incurred,
Later in the case, with a vast number of key
documents unaccounted for, and Respondents
continuing to flaunt the Magistrate’s discovery order,
Petitioner and his company made a motion directly to
the district Judge. He then ordered Respondents to
produce the documents or face sanctions (Appx E).
Respondents, in just days, turned over 9,383
emails they had withheld over seven years (Appx F).
The Court’s next order stated that
Respondents had met their obligations (Appx G). No
costs nor sanctions were assessed.
Respondents’
9

only statement of justification alluded to an internal
discussion on if the 9,383 emails were Attorney
Client Privileged.
The court never asked for, nor reviewed a
single email for verification. No privilege log had ever
been created, much less provided to the Court.
Respondents took no actionable measures that could
have resulted in a reduction, even to zero as in this
case, of the mandated expense sanction. Petitioner’s
review of the 9,383 emails found only a few even
mentioned counsels’ name, much less any that were
communications between attorney and client.
The Court simply ignored the Rule 37 expense
award mandate. The discovery, produced years late,
was worthless by that point as Respondents had
declared bankruptcy to avoid imminent trial. The
withheld discovery did however show an additional
$183,000 in hidden rentals. It also showed that
Respondents had repurchased their accused
infringing stabilization devices in their own private
bankruptcy auction, and continued to rent them out.
This has triggered the 2nd case, CV-08830-JAK-KS,
same accused device to the same ‘662 patent, and
now in its 4th year. This derivative case, with a
different judge, is experiencing the same staggering
discovery abuse.
The instant case exemplifies what the
Supreme Court, through its Advisory Committee and
its own rulings has advocated, that leaving Rule 37
sanctions on the floor fails “to penalize those whose
conduct may be deemed to warrant such a sanction,
[and] to deter those who might be tempted to such
10

conduct in the absence of such a deterrent." National
Hockey League v. Metropolitan Hockey Club, supra,
at 643.
C. This Case, In Particular,
Multiple Rule 37 Issues

Covers

Relevant, and in further support to grant this
writ is that the instant case covers a multitude of
Rule 37 failures.
1. Not appearing for deposition. Rule
(37(d)(l)(A)(i). (Grober v. Mako, 2:04-cv-08604-JZDTB, Dkt. 229). Noted earlier, Respondent Counsel,
Warwick, ordering MPI’s executives not to enter the
deposition room. The Magistrate ordered make-up
depositions. No sanction was imposed.
2. Failure to produce documents. The includes
multiple categories;
a.) Fully granted with no sanctions
applied. Rule 37(a)(5)(A). (Appxs. E, F,
G).
b.) Partially granted and partially
denied. Rule 37(a)(5)(C). The partially
denied portion, infringement documents,
was rendered moot upon the CAFC
Order to vacate and remand the errant
district court non infringement Order.
(Appx. D). Respondents thereafter
refused to correct and supplement their
responses, withholding thousands of
documents.
11

c.) Failure to impose sanctions by the
Magistrate. Sanctions raised before the
district judge who ignored the request.
Rule 37(a)(5)(A).
d.) A district judge direct order to
produce, then actual production. No sanctions
awarded nor reason given to meet Rule 37(a)
requirement finding that the losing party
acted with substantial justification, or that the
expense award would be unjust. (Appx E).
Rule 37. (Appx K).
e.) Rule 37(a)(5)(B) applies if a motion
is denied. “If the motion is denied, the court
may issue any protective order authorized
under Rule 26(c) and must, after giving an
opportunity to be heard, require [the losing
party] to pay ... reasonable expenses including
attorney’s fees. But the court must not order
this payment if the motion was substantially
justified or other circumstances make an
award of expenses unjust.” (emphasis added)
Herein, even if Respondents claim the motions
were denied, then the trial court should have
imposed sanctions upon Petitioner absent the same
“substantially justified” or “unjust” burden of proof.
The point, as stated by the Advisory
Committee Notes, 1970 Amendments, “[EJxpenses
should ordinarily be awarded unless a court finds

12

err

that the losing party acted justifiably in carrying his
point to the court.”
See also Rule 37(a)(5)(B) as cited in Appx. J, pp 115116, Blanchard, fn 33 & 34).
D. Research Shows Compliance Is Just A
Drop In The Bucket
Ellington states 86.3% of the judges
responded that they “seldom,” “almost never” or
“never” awarded such costs. (Appx. H, pg 86,
Ellington). This percentage, based on 194 active and
senior federal district court judges in 76 out of 94
U.S. judicial districts, asserts the additional point
that the problem is nationwide and cuts across the
entire judicial system. No state or region is outside
the norm. The norm is inapposite to the stated
intention and Orders of this Supreme Court.
The Law Review Article by Lindsey Blanchard,
“Rule 37(a)'s Loser-Pays "Mandate": More Bark Than
Bite” (University of the Pacific, McGeorge School of
Law, 20 1 32) delves into the pervasiveness of the
problem and its prejudicial effect on honest litigants,
most notably the little guy/gal. Blanchard’s study
fists case after case where attorneys, hundreds at a
time polled, have proffered that sanctions for
discovery abuse “holds the most promise for reducing
discovery problems.” This was based on a national
survey of counsel in closed federal civil cases (1997).”
(Appx J, pg 108, Blanchard, fn9).
2https://scholarlycommons.pacific.edu/cgi/viewcontent
.cgi?article=1334&context=facultyarticles
13

E. The Supreme Court and Attorneys
Want Compliance. The Trial Courts
Are The Missing Link
The interest to see sanctions imposed as the
norm, finds favor directly from attorneys. The
National Center for State Courts ("NCSC"), in the
early 1990’s, interviewed over 200 attorneys from
Boston, Kansas City, New Haven, and Seattle. They
suggested the imposition of costs and sanctions as
the "single measure" the courts should take to
improve the discovery process. (Appx J, pg 107,
Blanchard fii6).
One key reason for the Supreme Court to
accept any writ of certiorari is a conflict in how
courts of last resort, of different locals, deal with an
issue. What could be a greater conflict than when
the majority of trial courts nationwide acknowledge
that they fail to follow the dictates of the Supreme
Court, the highest court of last resort?
To the unfortunate 86.3% of litigants who have
become the norm in courtrooms across the country,
they are unfairly prejudiced and penalized when the
mandate of Rule 37 are ignored and discovery abuse
goes unchecked.
[These behaviors] “often result from a
desire to wear down an opponent who
has inferior litigating resources or exert
settlement leverage unrelated to the
merits of the dispute.”
(Appx J, pg 129, Blanchard fn92)

14

Also right on point, the Columbia Law School
Project for Effective Justice’s survey indicated that
large corporations used discovery inappropriately to
force small businesses to settle. Id.
One court recently put it more succinctly: "The
purpose of court-imposed sanctions is to stop
reinforcing winning through obstruction." Security
National Bank of Sioux City, Iowa v. Abbott
Laboratories, 299 F.R.D. 595, 597 (N.D. Iowa 2014).
The American Bar Foundation supported a
1980 study by Hastings College of Law Professor
Wayne Brazil. Interviewing 180 civil litigators in
Chicago, he noted “a disturbing picture of the way
the discovery system functions.” One attorney’s
response stated, “The rules are excellent.
The
enforcement of the rules stinks.” (Appx J, pg 110,
Blanchard, fn 15 (supra note 3 at 797)).
If there is one reason, in a nutshell, why this
petition for certiorari should not be overlooked or
denied, the above statement represents it to the core.
A vast majority of states have adopted
identical or nearly identical forms of Rule 37.
Clarification by the Supreme Court of the method to
achieve that intent in trial court practice will flow
through the veins of the entire court system.
F. Presently The Little Guy And Gal
Don’t Stand A Chance
As former U.S. Supreme Court Justice Lewis
F. Powell, Jr. noted in 1978:
15

Discovery as it now operates may enable
the party with the greater financial
resources to prevail simply by the threat
or reality of exhausting the available
resources of the weaker opponent.
Settlements are coerced, and persons or
businesses of comparatively limited
means pay unjust claims, or refrain
from pursuing just claims, simply
because they cannot afford the cost of
litigation. The mere threat of delay and
unbearable expense thus denies justice
to many actual or prospective litigants.
(Appx. J, pg 130, Blanchard, fn94).
Lindsey Blanchard, expounds that often,
failure to sanction ultimately forces the “little guy” to
settle.
While sanctions may not discourage
Goliath from ignoring his discovery
obligations in this situation, there is
still an immense benefit to David from
strict enforcement of Rule 37(a) because
an award of expenses, including
attorney's fees, allows him to stay in the
game. The only way David will ever
realize this benefit, however, is if the
judiciary begins to enforce the Rule
consistently and puts an end to the
vicious cycle of abuse and delay.
(Emphasis added) (Appx. J, pg 132, Blanchard).

16

Wherein the above is true, an 86.3% noncompliance rate, even double or triple that, would
still put compliance under 50%.
The 2008 ACTL/IAALS study, which was later
augmented in 2009 — 2010 cited “approximately half
of the survey respondents in the 2008 believed
discovery abuse occurs in nearly every case. 40% of
the respondents indicated that parties “often” or
“almost always” “ignore or violate discovery rules;”
more than 60% of the respondents noted that parties
“often” or “almost always” “harass or obstruct the
opposition.” (Appx J, pg. 117, Blanchard, fn36).
These statistics comport with former U.S.
Supreme Court Justice Lewis F. Powell, “settlements
are coerced ...delay and unbearable expense thus
deny justice to many actual or perspective litigants.”
In another study, Schroeder & Frank, they
stated that their direct observation, although limited,
that discovery controversies plummet when sanctions
are used. (Appx J, pg. 142, Blanchard fnl42).
G. The Presumption Should Be That Rule
37 Sanctions Are Automatic
Research underscores the reason for the
instant petition.
Thus, when the losing party has
engaged in obstructionist behavior or
needlessly raised costs, the award of
expenses should be an ordinary, if not
automatic, occurrence. That was the
17

Advisory Committee's intent, to which
the judiciary should adhere. (Appx J, pg.
136, Blanchard).
Research likewise indicates the benefit on
courtroom overload.
“Proper enforcement of Rule 37(a) adds
the "bite" that has been missing from
the Rule and should lead to the result
the Advisory Committee intended: fewer
instances of discovery abuse,
As
discussed above, the failure to enforce
Rule 37(a) leads to a vicious cycle of
abuse among litigants and an everincreasing burden on the courts.
However, if the judiciary is willing to
strictly adhere to the spirit of Rule 37(a)
and to impose existing ethical standards
on attorneys, it can eliminate much of
the time and money wasted through
discovery .abuse. (Appx J, pg. 142,
Blanchard fill39).
Indeed, the presumption in favor of
imposing an expenses sanction means
that a court needs to consider whether
the sanction is inappropriate only if the
losing party comes forward with
evidence to rebut the presumption.”
(Appx J, pp 140-141, Blanchard)
This continues to speak to the benefit of
reversing an 86.3 % non-compliance rate.

18

In research by Mark S. Cady the benefits are
many.
...the purposes of discovery sanctions
are to prevent a party from profiting
from its failure to comply with discovery
rules, ensure compliance with the rules,
and deter other litigants from engaging
in dilatory discovery conduct.
(Appx J, pg. 112, Blanchard fn 20). Also, Cine FortySecond, St. Theatre v. Allied Artists Pictures Corp.,
602 F.2d 1062, 1066 (2d Cir. 1979). This again
comports to the Supreme Court, “to penalize ... [and]
to deter”, cited in National Hockey League.
There is little doubt that Rule 37(a) is well
written. “91% of judges polled in the Department of
Justice 1977-1978 study stated that “Rule 37 [is]
adequately written” (Appx J. pg. 121, Blanchard).
The rule is understood, why is it ignored?
H. Trial Court Failure To Impose Expense
Awards Has No Unity Of Cause, Just
Accepted Practice
Research, as noted in Appx J, pg 122,
fn57), shows no pervasive set of reasons why judges,
nationwide, shy or ignore Rule 37 compliance.
Common responses include the process is time
consuming, takes judicial resources, and that it isn’t
their job. This runs headlong into research, noted
earlier, that compliance could well reduce the
workload, result in more litigant adherence to
discovery rules, and mitigate discovery motions. If
19

the non-compliance rate of Rule 37 were reversed and
became an 86% compliance rate, courtroom practice
may look quite different. One thing is certain, an
86% compliance rate would more closely resemble the
dictates of this Court and Congress. Non-compliance
has simply become the accepted practice. There
appears no specified intention.
I. The Goal Of This Petition For A Writ
Of Certiorari
The Advisory Committee’s advisements, and
this Supreme Court, in multiple cases state that Rule
37 sanctions should be the norm. They are not.
Research shows that the Supreme Court, as
the highest authority, and attorneys as the practical
practitioners, both make strong statements
requesting Rule 37 sanction compliance. In the
center, trial judges, for no defined logical or illogical
reason, just out of common stance and habit, are a
disconnect between the Rule and practice.
Petitioner commenced litigation 14 years ago
solely to bring a set of technical facts before a judge
and/or jury.
The goal, adjudicate infringement
whichever way the scales of justice weighed.
The failure of adherence to Rule 3Ts mandate,
begat exactly what the pre-1970 amendment
Columbia Law School survey cited, discovery abuse
being the sword by which “one litigant wears down
an opponent with inferior litigating resources.”
(Appx J, pg. 129, Blanchard, fn92).

20

The onslaught of discovery abuse required
Petitioner’s continued motions to compel discovery,
and severely hampered all aspects of case progress.
Fourteen years of litigation took its toll and
Petitioner’s company finally shuttered in financial
rum. Honest employees lost their jobs as further
collateral damage.
Petitioner, experiencing the devastation of his
Academy Award winning company through discovery
abuse, was stunned to discover the plethora of
research from the Department of Justice, University
Law Reviews, the IAALS and others, all crying out
the mischief of Rule 37 non-compliance.
For that reason, Petitioner brings this writ for
certiorari. The goal, give this Court the opportunity,
if it wishes, to correct the problem.
Everyone who enters our courtrooms should be
granted the favor of a level playing field and
compliance with a well-written and simply stated
Rule 37, such as Rule 37(a) that reads:
must, after giving an opportunity to
be heard, require the party or
deponent whose conduct necessitated
the motion, the party or attorney
advising that conduct, or both to pay
the movant’s reasonable expenses
incurred in making the motion,
including attorney's fees. But the
court must not order this payment if
... (then listed exceptions)

21

The exceptions pertaining to “ if”, are clear.
C. Ronald Ellington pinpoints the 1970 Amendment
Committee’s intention because he targets the
requirement, “"substantial justification" necessary to
defeat the award of expenses”.
Rule 37 non-compliance history goes back
decades. It seldom rises to the surface of judicial
appeal because who is left to raise it?
Those
damaged, have lost the fight, if not the spirit to fight.
Their resources are often in shreds, their “just
claims” are often nightmares of lost companies and
stressed families.
How likely is it that this issue, side-stepped
twice by the Court of Appeals for the Federal Circuit,
will come again before the Supreme Court?
If on our trafficked roads, motorists suddenly
ignored red fights 86.3% of the time, the damage,
deaths, pain and suffering caused would be a
national tragedy on day one.
If our measles and polio vaccines were likewise
suddenly ineffective 86.3 % of the time, our belief in
the efficacy of our entire medical system would
crumble.
Why is it that 86.3% disobedience to our
highest court in the land, the Supreme Court, on an
issue that cuts a vast swath through virtually all
courtrooms, with likely impact on a majority of
litigants, is simply viewed as a statistic to be
ignored?

22

This Court is requested to grant certiorari so
that it can apply instruction, procedure, whatever it
deems necessary that will comport to compliance of
its own mandate and reverse the 86.3% noncompliance rate to at least 86.3% compliance of this
most important, yet ignored Rule: 37.
If not now, when?

CONCLUSION
For the foregoing reasons, this Court should
grant this petition for a writ of certiorari.

June 1, 2019

Respectfully submitted,
/David Grober/
David E. Grober, Pro Se
578 Washington Blvd., #866
Marina del Rey, CA 90292
310-951-1110
Davidgroberl@gmail.com

Petitioner, being pro se, realizes that pro se
status may be a strike against granting this writ for
certiorari. If this petition is granted, Petitioner will
proceed with Supreme Court admitted counsel for
briefing and oral argument.

23

